                                      AUDIT OF

                  THE VERMONT WOMEN’S BUSINESS CENTER

                           AUDIT REPORT NUMBER 1-17

                                SEPTEMBER 19, 2001




This report may contain proprietary information subject to the provisions of
18 USC 1905 and must not be released to the public or another agency without permission
of the Office of Inspector General.
                       U.S. SMALL BUSINESS ADMINISTRATION
                           OFFICE OF INSPECTOR GENERAL
                               WASHINGTON, D.C. 20416

                                                                  AUDIT REPORT
                                                            Issue Date: September 19, 2001
                                                            Number: 1-17



To:           Wilma Goldstein
              Associate Administrator, Office of Women’s Business Ownership

              Cory Whitehead
              Acting Assistant Administrator for Administration



From:         Robert G. Seabrooks
              Assistant Inspector General for Auditing

Subject:      Audit of the Vermont Women’s Business Center

        We completed an audit of the Vermont Women’s Business Center (VWBC). The VWBC
is housed at Trinity College of Vermont (Trinity) in Burlington, Vermont and provides women
with business training, counseling, and technical assistance. The VWBC is co-located with the
Women’s Small Business Program (WSBP), another program established by Trinity to assist
women. Trinity designated the WSBP Director responsibility for administration and supervision
of the VWBC. Under the terms of a 5 year cooperative agreement with SBA (the award), Trinity
received $150,000 in federal funds for the VWBC’s first project year and was approved to
receive $140,000 in federal funds for the second project year. Based on Trinity’s expected
closure, SBA approved the assumption of the award by the owners of the college, the Sisters of
Mercy. Their application for third year funding is pending SBA action.


                                 OBJECTIVES AND SCOPE

         The audit focused on the financial aspects of the award. The audit objectives were to
determine if Trinity (1) complied with the financial management terms and conditions of the
award, (2) met statutory matching requirements, and (3) reported only allowable costs and in-
kind contributions. The audit covered the first project year (July 1, 1999 – June 30, 2000) and
the first half of the second project year (July 1, 2000 – December 31, 2000). For year 1 and 2,
we reviewed financial information submitted to SBA as well as Trinity’s accounting records for
the VWBC and determined if these items reconciled. We also interviewed Trinity, VWBC, and
SBA officials. For year 1, based on accounting record transaction descriptions that appeared
questionable, we judgmentally selected and reviewed supporting documentation for 50
expenditure transactions totaling approximately $19,873, or 12 percent, of total year 1
expenditures. In addition, we reviewed supporting documentation for the total reported in-kind
contributions of $39,778. We did not review a sample of expenditures and in-kind contributions
for year 2. Fieldwork was conducted from March through May 2001. The audit was performed
in accordance with Government Auditing Standards.


                                      AUDIT RESULTS

        We determined that Trinity (1) did not comply with some of the financial management
terms and conditions of the award, (2) undermatched cash by $24,900 in year 1, (3) reported
$31,655 of unallowable costs and in-kind contributions in year 1, and (4) submitted inaccurate
and inconsistent financial information to SBA. As a result, we recommended remittance of
$36,185 to SBA. These issues may represent material non-compliance with terms and conditions
of the award, and SBA should determine if suspension of the award is appropriate in accordance
with OMB Circular A-110.


FINDING 1:        Trinity’s Financial Management of the Award Needs Improvement

        Trinity’s financial management of the award did not ensure proper accountability of
award funds. Additionally, written procedures for determining the reasonableness, allocability,
and allowability of costs for the award were not maintained, the financial management system
records did not adequately identify one source of funds, and personnel activity reports were not
maintained to support salaries charged to the award.


The Financial Management System did not Ensure Proper Accountability of Award Funds

         Trinity’s financial management system did not separately account for the receipt and
expenditure of federal, non-federal and program income funds of the VWBC award. OMB
Circular A-110, Section 21, requires the recipient’s financial management system to provide
records that identify adequately the source and application of funds for federally sponsored
activities. In addition, Standard Form (SF) 269, Financial Status Report, requires separate
reporting of the federal and non-federal share of expenditures, and the amount of disbursed and
non-disbursed program income. Further, the SBA Form 2069, Detailed Actual Expenditures for
Period Covered by Request, requires the breakdown of federal, non-federal and program income
expenditures by budget object cost category. As the system did not separately account for award
funds, Trinity can not ensure that financial reports provided to SBA were complete and accurate.


Written Procedures for Determining the Reasonableness, Allocability, and Allowability of Costs
were not Maintained

       Trinity did not maintain written procedures for determining the reasonableness,
allocability, and allowability of costs for the VWBC award. OMB Circular A-110, Section 21,


                                                2
requires the recipient organization to maintain written procedures for determining the
reasonableness, allocability, and allowability of costs in accordance with the applicable federal
cost principles and the terms and conditions of the award. The auditors questioned costs and in-
kind contributions reported to SBA. See Finding 3.


Records did not Adequately Identify One Source of Funds

        The source of $4,000 of year 1 award income was not identified in the accounting records
or by supporting documentation. Accordingly, the auditors could not determine if the income
was program income or cash match received from a third party, and also could not determine if
the income was designated for VWBC activities. OMB Circular A-110, Section 21, requires that
the recipient’s financial management system provide records that identify adequately the source
and application of funds for federally sponsored activities. The circular also requires that the
accounting records include cost accounting records that are supported by source documentation.


Personnel Activity Reports were not Maintained to Support Salaries Charged to the Award

        Personnel activity reports were not maintained for salaries charged to the award. OMB
Circular A-122, Attachment B, requires that personnel activity reports reflecting the distribution
of activity to each employee be maintained for all staff members whose compensation is
charged, in whole or in part, directly to awards. In addition, the reports must reflect the “after
the fact” determination of the actual activity of each employee and must be approved by a
responsible official. Also, budget estimates do not qualify as support for charges to the award.
Although the auditors determined that salaries charged to the award appeared reasonable, salary
expenditures must be more adequately documented in the future.


Recommendations:

       We recommend the Acting Assistant Administrator for Administration require Trinity to:

1A.    Develop income and expense accounts in the financial management system to meet SBA
       reporting requirements by separately accounting for the receipt and expenditure of
       federal, non-federal, and program income funds.

1B.    Develop and implement written procedures for determining the reasonableness,
       allocability, and allowability of costs.

1C.    Revise current policies and procedures to ensure appropriate records and supporting
       documentation are maintained to adequately identify the source and application of award
       funds.




                                                 3
        We recommend the Associate Administrator, Office of Women’s Business Ownership,
require Trinity to:

1D.    Revise current policies and procedures to ensure adequate personnel activity reports are
       maintained for all VWBC staff and approved by the responsible official (VWBC Project
       Director).


Auditee Comments:

        In response to recommendation 1A, Trinity stated that they (1) hired an accounting
professor to make the necessary changes to meet SBA’s reporting requirements, (2) designed and
implemented a new accounting system, and (3) created a report to account for the receipt and
expense of federal and non-federal funds as well as program income. In response to
recommendation 1B, Trinity stated that the center has the appropriate OMB circulars, A-110 and
A-122, as guidelines for determining reasonableness, allocability, and allowability of costs and is
in the process of developing written procedures to ensure adherence to the circulars. In response
to recommendation 1C, Trinity stated the center has taken steps to ensure they have the highest
level of record keeping that is supported by source documentation and has developed new forms
that identify program income, cash match, and in-kind match by event. In response to
recommendation 1D, Trinity stated that the center has maintained personnel activity reports
approved by the Project Director since April 2001. Trinity’s response, less attachments, is
included herein as Attachment 4.


Evaluation of Auditee Comments:

        Trinity’s comments indicate agreement with finding 1. Trinity’s stated actions are fully
responsive to recommendations 1A, 1C, and 1D, and partially responsive to recommendation 1B.
Trinity’s development of written procedures to ensure adherence to the OMB circulars will
ensure costs are in accordance with the applicable federal cost principles. However, additional
written procedures must be developed and implemented to ensure Trinity’s determination of the
reasonableness, allocability, and allowability of costs is also in accordance with the terms and
conditions of the award.


FINDING 2:       Adequate Cash Match was not Provided In Year 1 of the Award

        Trinity undermatched cash by $24,900 in year 1 of the award. As a condition of
receiving financial assistance, Section 29 of the Small Business Act required recipient
organizations to obtain cash contributions (cash match and in-kind contributions) from non-
federal sources. Cash match is defined as the recipient’s cash outlay, including the outlay of
money contributed by third parties. For year 1, the matching requirement was 1 non-federal
dollar for each 2 federal dollars (50 percent). Also, not more than one half of the non-federal
match could be in the form of in-kind contributions. Accordingly, Trinity was required to




                                                 4
provide $37,5001 of cash match. An SF 269 submitted to SBA and Trinity’s accounting records
show that Trinity made outlays for the VWBC of only $162,600 in year 1 ($150,000 of federal
funds + $12,600 of cash match). Based on the amount of federal funds drawn down in year 1,
Trinity was required to make outlays of $187,500 ($150,000 of federal funds + $37,500 of cash
match). As a result, Trinity undermatched cash by $24,900 ($37,500-$12,600). By signing the
Application for Federal Assistance, Trinity’s Vice President certified that the college had the
managerial and financial capability (including funds sufficient to pay the non-federal share of
project cost) to ensure proper planning, management, and completion of the project. As a result
of the above, Trinity should remit overdrawn federal funds to SBA. See Recommendation 3A
and Attachment 3 for an explanation of the required reimbursement.


Recommendations:

        We recommend the Associate Administrator, Office of Women’s Business Ownership,
require Trinity to:

2A.       Revise current policies and procedures to ensure cash match requirements are met.

2B.       Correct and resubmit any inaccurate reports previously submitted to SBA for year 1 of
          the award along with supporting accounting records.


Auditee Comments:

         Trinity stated that the VWBC did meet year 1 cash match requirements. They also stated
that the final year 1 SF 269 was prepared incorrectly. Trinity provided a spreadsheet entitled
“Actual Grant Receipts and Expenditures For Year 1” to support that the adequate amount of
cash match was received and expended in year 1. Furthermore, Trinity stated that expenses for
the VWBC were consistently understated in all accounting records and reports submitted to SBA
in order to align with the year 1 budget and that VWBC expenses were routinely charged to the
WSBP expense accounts when the VWBC budget was met or exceeded. Sample invoices were
provided to show that VWBC expenses were charged to the WSBP. Additionally, Trinity stated
that all reports filed with SBA were based on Trinity’s General Ledger information and in some
cases, reallocations, transfers, adjustments, and correcting entries were made after SBA reports
were due and filed. They further stated that all timing differences will be reconciled in the report
filed for the last quarter of year 2, and will be reflected in the final annual report to SBA. By
switching over to new accounting software, with accounts that match the requirements of the SF
269 and SF 270, Trinity is confident that they now have accuracy in their reporting.




1
    $150,000 (federal funds) x 50% = $75,000 (total required match)/2 = $37,500


                                                         5
Evaluation of Auditee Comments:

        The “Actual Grant Receipts and Expenditures For Year 1” spreadsheet alone is not
adequate to support that Trinity met their year 1 cash match requirements. Specifically,
accounting records were not provided to support that reallocations, transfer, adjustments, and
correcting entries were made after SBA reports were due and filed. Additionally, it is
inappropriate to reconcile year 1 timing differences on year 2 SBA reports. Rather, a modified
SF 269 with supporting accounting records should be submitted to SBA for year 1. Accordingly,
recommendation 2B was added to the audit report. Furthermore, the sample invoices provided
were inadequate to support the $24,900 of year 1 cash undermatch. Some of the invoices
covered expenditures incurred by the WSBP prior to the VWBC’s existence, some were solely
for WSBP advertising, and for others, the allocability to the VWBC was not verifiable. We
continue to support our position and believe that our recommendations are valid.


FINDING 3:       Costs and In-kind Contributions of $31,655 for Year 1 of the Award
                 Should Be Disallowed

       Trinity reported costs and in-kind contributions of $31,655 to SBA that should be
disallowed because they were unallowable. OMB Circular A-122, Cost Principles for Non-Profit
Organizations, Attachment A, states that costs must be reasonable, allocable, and adequately
documented in order to be allowable.


$10,408 of VWBC Expenditures were Unallowable

        The auditors questioned $10,408, or 52 percent, of the reviewed year 1 VWBC
expenditures because they were unallowable. Of this amount, $1,244 was unreasonable, $3,282
was not allocable to the center, and $5,881 was not adequately supported. See Attachment 1 for
a table of questioned expenditures. OMB Circular A-122, Attachment A, states that a cost is
reasonable if it does not exceed (in nature and amount) that which would be incurred by a
prudent person. A cost is allocable if it is incurred specifically for the award; benefits both the
award and other work and can be distributed in reasonable proportion to the benefits received;
and is necessary for the overall operation of the organization. Expenditures for WSBP/VWBC
co-sponsored activities were considered unreasonable if more than 50 percent of the expenditures
were allocated to the VWBC.


$21,247 of Reported In-kind Contributions were Unallowable

        The auditors questioned $21,247, or 53 percent, of the reported $39,778 of in-kind match
for year 1 because the contributions were unallowable. There was not adequate supporting
documentation for $12,902 of the in-kind match, $4,745 was unreasonable, and $3,600 was
unallocable. See Attachment 2 for a table of questioned in-kind match. OMB Circular A-110,
Section 23, states that third party in-kind contributions will be accepted as match when they are
verifiable from the recipients records, necessary and reasonable, and allowable under applicable


                                                6
cost principles. The circular also requires that the basis for determining the valuation for
personal service, materials, and equipment be documented. In-kind donations made for
WSBP/VWBC co-sponsored activities were considered unreasonable if more than 50 percent of
the donations were counted as in-kind for the VWBC. The VWBC Project Director stated that
adequate documentation is now being maintained for all in-kind contributions.


Recommendations:

       We recommend the Acting Assistant Administrator for Administration require Trinity to:

3A.    Remit $36,185 to SBA for the amount of federal funds overdrawn in year 1 due to the
       cash undermatch (see finding 2) and the unallowable expenditures and in-kind
       contributions described above. See Attachment 3 for the calculation of the required
       reimbursement.

3B.    Revise current policies and procedures to ensure all costs charged to the award are
       adequately documented.

        We recommend the Associate Administrator, Office of Women’s Business Ownership,
require Trinity to:

3C.    Revise current policies and procedures to ensure all third party in-kind contributions are
       verifiable, necessary and reasonable, and allowable under applicable cost principles.


Auditee Comments:

        Trinity disagreed that costs and in-kind contributions of $38,975 should be disallowed
and provided spreadsheets and documentation to support that only $3,895 of the reviewed
VWBC expenditures and in-kind contributions should be disallowed. Trinity also provided
support for the $5,874 of questioned salary expenditures. Trinity believes they should be
required to remit only $2,597 to SBA for the amount of federal funds overdrawn in year 1.
Trinity indicated that they agreed with recommendations 3B and 3C and described actions taken
to address each recommendation.


Evaluation of Auditee Comments:

       Trinity provided adequate support for $167 of the questioned VWBC expenditures and
$1,279 of the questioned in-kind contributions. Additional documentation provided by Trinity to
support VWBC expenditures and in-kind contributions was inadequate for various reasons. For
example, vague general journal entries were provided in lieu of supporting invoices, ads were
provided that clearly only mentioned the WSBP, and 100% of in-kind contributions donated for
co-sponsored classes were counted as in-kind for the VWBC. The auditors continue to question
$10,408 or 52% of the reviewed VWBC expenditures and $21,247 or 53% of the reported in-


                                                7
kind contributions. Trinity also provided adequate support for the $5,874 of questioned salary
expenditures. Accordingly, the portion of finding 3 related to this matter and the associated
recommendation have been removed from the audit report.

        In response to recommendation 3B, Trinity stated they now require timesheets of all
employees to document time worked. This action, however, will only ensure that salaries
charged to the award are adequately documented. All costs charged to the award should be
adequately documented. In response to recommendation 3C, Trinity stated they are now using
FASB Statement 116 “Accounting for Contributions Received and Contributions Made” and
OMB Circular A-122 as their guidelines for in-kind contributions. Trinity, however, must also
ensure that current policies and procedures are revised to ensure compliance with OMB Circular
A-110, which states that the basis for determining the valuation of an in-kind contribution must
be documented.


FINDING 4:           Inaccurate and Inconsistent Financial Information was Submitted to SBA

         Inaccurate and inconsistent financial information was submitted to SBA during year 1
and year 2 of the award. Specifically, an overstated amount of cash match was reported for the
first half of year 2 and an inconsistent amount of in-kind match was reported for the second
quarter of year 2 on SBA required reports. Furthermore, additional financial information
submitted to SBA showed overstated amounts of cash match for year 1 and the first half of year
2. As a result, SBA was not provided with a true reflection of the VWBC’s financial status.


Trinity Overstated Cash Match Reported on Required SBA Reports

        Trinity overstated the amount of cash match reported to SBA. For the first half of year 2,
Trinity reported $69,994 of cumulative federal expenditures on an SF 269. Trinity also
requested reimbursement on an SF 270, and received payment from SBA for this amount.
Accordingly, Trinity should have provided approximately $17,4992 of cash match. The
accounting records for the first half of year 2 showed total federal and cash match expenditures
equaled approximately $70,738, and therefore, Trinity only spent approximately $744 ($70,738 -
$69,994) of cash match. Consequently, as of the first half of year 2, Trinity was cash
undermatched by approximately $16,705 ($17,449 - $744). Trinity, however, reported $17,162
of cash match on the SF 269, leading SBA to believe they were close to being on target for
meeting their year 2 cash match requirement. Trinity certified at the bottom of the SF 269 that to
the best of their knowledge and belief the report was correct and complete. Trinity also certified
on the SF 270 that to the best of their belief and knowledge the data was correct and all outlays
were made in accordance with the conditions of the award. As a result of the above, Trinity may
be cash undermatched by the end of year 2 and additional funds may be owed to SBA.




2
    $69,994 (federal funds drawn down) x 50% = $34,997 (total required match)/2 = $17,499


                                                         8
The Amount of In-kind Contributions Reported to SBA on Two Separate Reports for the Same
Period were Inconsistent

        For the second quarter of year 2, the amount of in-kind reported to SBA on the SF 269
did not reconcile to the SBA Form 2069 submitted with the SF 270. Trinity reported $22,377 of
third party in-kind contributions on the SF 269. The SBA Form 2069 showed in-kind
contributions of only $8,342. Accordingly, one of the reports submitted to SBA was inaccurate
and the center may have overstated in-kind on the SF 269 by $14,035 ($22,377 - $8,342).
Trinity certified at the bottom of the SF 269 that to the best of their knowledge and belief the
report was correct and complete. Trinity also certified on the SF 270 that to the best of their
knowledge and belief the data was correct and all outlays were made in accordance with the
conditions of the award. The Notice of Award states that the recipient agrees to maintain
complete and accurate records to facilitate a financial and/or program audit.


Additional Financial Information Provided to SBA Showed Overstated Amounts of Cash Match

        On December 8, 2000, the Office of Women’s Business Ownership (OWBO) sent a letter
to Trinity requesting a spreadsheet of actual source and use of funds for year 1 and year 2 to date.
Attached to Trinity’s response dated January 5, 2001, were two spreadsheets entitled “Actual
Grant Receipts and Expenditures for Year 1 – 7/1/99 – 6/30/00” and “Grant Receipts and
Expenditures – Fiscal Year 2.” As the year 1 spreadsheet was prepared approximately 6 months
following the close of year 1, the accounting records and reports previously submitted to SBA
would have been available for use in preparing the spreadsheet. The year 1 spreadsheet showed
that the center received and expended the required $37,500 of cash match. The accounting
records and reports previously submitted to SBA, however, showed that the center only received
$15,500 and expended $12,600 of cash match. The year 2 spreadsheet showed the center had
received $33,500 and expended $17,162 of cash match. The accounting records, however,
showed that the center had only actually received $2,600 and the auditors calculated that the
center only expended $744 of cash match. Accordingly, the spreadsheets submitted to SBA with
Trinity’s response were inaccurate and misleading. Expended cash match was overstated by
$24,900 ($37,500-$12,600) for year 1 and by $16,418 ($17,162-$744) for year 2. The Notice of
Award states that the recipient agrees to maintain complete and accurate records to facilitate a
financial and/or program audit.


Recommendations:

        We recommend the Associate Administrator, Office of Women’s Business Ownership,
require Trinity to:

4A.    Correct and resubmit any inaccurate reports previously submitted to SBA for year 2 of
       the award along with supporting accounting records in order to provide SBA with a true
       reflection of the financial status of the VWBC to date.




                                                 9
4B.    Revise current policies and procedures to ensure only accurate and complete reports are
       submitted to SBA.


Auditee Comments:

        Trinity stated that they strongly disagree with the inference that the VWBC reports were
misleading or in anyway misrepresented. They stated that they have corrected the reports filed
for the first and second quarter of year 2 and will submit them to SBA. They stated that the
revised reports will provide SBA with a better picture of the center’s financial status as of
December 31, 2000. Trinity provided the auditors corrected SBA Form 2069s for the first and
second quarter of year 2, along with accounting records and lists of VWBC expenditures broken
down by expenditure categories. These lists also show the amount of funds requested from SBA
for each quarter and the amount of cash match provided. In response to recommendation 4B,
Trinity stated that the center has set up an accounting software program to generate the detailed
financial information that is required to complete SF 269 and 270.


Evaluation of Auditee Comments:

        Although Trinity stated that they disagree with the inference that submitted reports were
misleading and misrepresented, they did not provide support to dispute the facts outlined in
finding 4. The accounting records and expense lists provided in response to the audit show
expenses of $4,000 more than the accounting records obtained by the auditors during the audit.
Nevertheless, they still show that the center was significantly cash undermatched as of the first
half of year 2 and therefore, the amount of cash match reported to SBA for the first half of year 2
was overstated.

        Although Trinity stated they corrected reports filed for the first and second quarters of
year 2, the “corrected” SBA Form 2069s do not reconcile to the accounting records, and
therefore, are unsupported. Additionally, the “corrected” SBA Form 2069 for the second quarter
of year 2 only shows $7,764 of in-kind contributions and accordingly, still does not reconcile to
the SF 269 submitted to SBA for the second quarter of year 2. All “corrected” reports should be
carefully reviewed before being submitted to SBA.

        The documentation provided also does not refute our finding that additional financial
information provided to SBA showed overstated amounts of cash match. The new accounting
software alone will not ensure that only accurate and complete reports are submitted to SBA. If
inaccurate information is input to the software, the reports will be incorrect. Accordingly,
current policies and procedures should also be revised to include report review procedures.


Other Matters:

      The following other matters were identified during the audit: (1) the financial
management system could be improved to better allow for a comparison of outlays with budget


                                                10
amounts, (2) the Project Director’s involvement in authorizing VWBC expenditures and
reviewing SBA reports could benefit the VWBC, and (3) required SBA approval was not
obtained for printed items.


The Financial Management System Could be Improved to Better Allow for a Comparison of
Outlays with Budget Amounts

        Trinity’s automated financial management system could be designed more effectively to
minimize the risk of error in comparing actual outlays to budget amounts. Specifically, the
automated financial management system expense accounts should be aligned with the budget
accounts listed in Trinity’s proposal and reflected on the Notice of Award. This would eliminate
the need for a manual calculation of the actual outlays by budget cost category when comparing
actual outlays to budget amounts. Additionally, the sources of cash match income shown under
the “other” budget cost category in the proposed budget should be broken down and shown as
costs under the categories they are expected to be expended on. This would reduce the large
amount of estimated costs under the “other” budget cost category and would allow for a more
accurate representation of estimated costs by budget cost category. OMB Circular A-110,
Section 21, requires that recipients maintain a financial management system that will allow for
the comparison of actual outlays to budget amounts. Further, the Notice of Award requires that
the semi-annual performance report contain information relating to actual financial expenditures
of budget object cost categories versus the estimated budget.


The VWBC Project Director’s Involvement in Authorizing the Expenditure of Award Funds and
Reviewing SBA Reports Could Benefit the VWBC

        The VWBC Project Director was not involved in authorizing the expenditure of award
funds and reviewing reports submitted to SBA. Trinity proposed that the Project Director would
be responsible for the overall daily and strategic administration of the center and successful
completion of SBA required reports. Therefore, the Project Director’s involvement in
authorizing expenditures and reviewing reports may help to ensure that award funds are used for
authorized purposes and that accurate reports are submitted to SBA in the future. As a result,
questioned costs and in-kind contributions and reporting deficiencies similar to those previously
identified in this report may be prevented.


Required SBA Approval was not Obtained for Printed Items

        Trinity did not obtain prior SBA approval for printed items. In year 1, $2,640 was
charged to the award’s printing expense account for items such as brochures, postcards, magnets,
etc. For the first half of year 2, $644 was charged to the printing expense account. The VWBC
District Office Technical Representative (DOTR), informed the auditors that the VWBC did not
submit any draft items to her for review and approval prior to printing and distribution. SBA
approval should be obtained prior to printing and distribution of items such as brochures,
postcards, magnets, etc. to ensure the items are acceptable to SBA. The Notice of Award


                                               11
required the center to submit draft brochures, fliers, annual reports, etc to the DOTR for review
and approval prior to printing and distribution. The VWBC Director stated that SBA approval is
now being obtained prior to printing and distribution.


Auditee Comments:

       The auditee did not provide comments in response to the other matters.


                                         CONCLUSION

        As discussed in Findings 1 through 4, Trinity did not comply with terms and conditions
of the award and federal reporting requirements. The instances of non-compliance noted in
Findings 1 through 4 may be significant enough to be considered material. OMB Circular A-
110, Uniform Administrative Requirements for Grants and Agreements with Institutions of
Higher Education, Hospitals, and Other Non-Profit Organizations, Section 62, states that if a
recipient materially fails to comply with the terms and conditions of the award, the federal
awarding agency may take actions including wholly or partly suspending or terminating the
current award. OMB Circular A-110, Section 2, describes suspension as an action by the federal
awarding agency that temporarily withdraws federal sponsorship under an award, pending
corrective action by the recipient or pending a decision to terminate the award by the federal
awarding agency.


Recommendation:

       We recommend the Associate Administrator, Office of Women’s Business Ownership:

5A.    Determine if suspension of the award is appropriate in accordance with OMB Circular A-
       110.


Auditee Comments:

        Trinity agrees with our recommendations in several practical areas of program
management and administration. However, they stated that the presence of the VWBC and the
quality of its offerings have gained widespread recognition throughout the area, and to have the
grant suspended or terminated would be against everything that SBA stands for – helping small
businesses get started.


Evaluation of Auditee Comments:

        After reviewing Trinity’s response to the audit, we continue to support our position that
Trinity did not comply with terms and conditions of the award and that the instances of non-


                                                12
compliance may be significant enough to be material. Accordingly, we believe our
recommendation is valid.


SBA Management’s Response to the Audit and OIG Evaluation:

       The Associate Administrator, Office of Women’s Business Ownership and the Acting
Assistant Administrator for Administration agreed with our findings and believe our
recommendations are valid. Their comments are included as Attachment 5.



                                           ****
      The findings included in this report are the conclusions of the Office of Inspector
General’s Auditing Division. The findings and recommendations are subject to review,
management decision, and corrective action by your office in accordance with existing
Agency procedures for audit follow-up and resolution.

        Please provide us your management decision for each recommendation within 80 days.
Your management decisions should be recorded on the attached SBA Forms 1824,
“Recommendation Action Sheet,” and show either your proposed corrective action and target
date for completion, or explanation of your disagreement with our recommendations.

       This report may contain proprietary information subject to the provisions of
18 USC 1905. Do not release to the public or another agency without permission of the Office
of Inspector General.

       Should you or your staff have any questions, please contact Robert G. Hultberg, Director,
Business Development Programs Group at (202) 205-7577.

Attachments




                                              13
                                                                            Attachment 1
                                                                              Page 1 of 2


                          Year 1 – Questioned Expenditures
#       Acct Trans             Vendor          Trans Amt     Questioned   Allowable      Reason for
         #   Date                                              Amt          Amt       Questioned Amt
    1    100  2/4/00                            $ 2,938.03                $ 2,938.03
    2    120  2/4/00                            $ 224.74                  $ 224.74
    3    110 1/12/00                            $ 200.00       $   200.00            unreasonable
    4    110 4/18/00                            $ 450.00       $   225.00 $ 225.00 unsupported
    5 110        5/1/00                         $ 252.00                     $   252.00
    6 110       6/23/00   [FOIA Ex. 4 and 6]    $ 1,200.00     $   550.00    $   650.00 $150 unsupported,
                                                                                        $400 unallocable
 7       110    6/23/00                         $ 5,000.00     $ 5,000.00               unsupported
 8       202   11/11/99                         $    24.35     $    24.35               unsupported
 9       202    4/13/00                         $    25.50                   $    25.50
10       202    6/13/00                         $    30.00                   $    30.00
11       202    6/13/00                         $    55.75                   $    55.75
12       202    6/30/00                         $ 117.89                     $ 117.89
13       202    6/30/00                         $    25.00                   $    25.00
14       203    4/14/00                         $ 480.00       $   240.00    $ 240.00 unsupported
15       203    5/17/00                         $ 516.00       $   258.00    $ 258.00 unreasonable
16       203    5/17/00                         $ 516.00       $   258.00    $ 258.00 unreasonable
17       203    5/17/00                         $ 516.00       $   258.00    $ 258.00 unreasonable
18       203    5/17/00                         $ 312.00       $   156.00    $ 156.00 unreasonable
19       250    1/18/00                         $    24.07                   $    24.07
20       250     4/5/00                         $    52.44                   $    52.44
21       320    6/20/00                         $ 119.55                     $ 119.55
22       320    6/23/00                         $ 1,242.00                   $ 1,242.00
23       320    6/30/00                         $ 517.71                     $ 517.71
24       400   11/23/99                         $ 105.00       $ 105.00                 unallocable
25       400   11/23/99                         $ 105.00       $    52.50    $    52.50 unreasonable
26       400   11/23/99                         $ 105.00       $ 105.00                 unallocable
27       400   11/23/99                         $ 105.00       $ 105.00                 unsupported
28       400   11/23/99                         $ 1,000.00     $ 1,000.00               unallocable
29       400    12/3/99                         $    36.00     $    36.00               unallocable
30       400    12/7/99                         $ 105.00                     $ 105.00
31       400     2/3/00                         $ 105.00       $   105.00               unallocable
32       400     2/3/00                         $ 105.00       $   105.00               unallocable
33       400    2/17/00                         $ 231.60       $   231.60               unallocable
34       400    2/17/00                         $    21.00     $    21.00               unsupported
35       400    2/17/00                         $    69.40     $    69.40               unallocable
36       400    2/18/00                         $    42.00     $    42.00               unsupported
37       400     3/2/00                         $ 231.60       $   231.60               unallocable
38       400     3/6/00                         $    77.59     $    38.80    $    38.79 unreasonable
39       400     5/1/00                         $    30.00     $    15.00    $    15.00 unreasonable
40       400    6/23/00                         $ 640.00       $   118.62    $ 521.38 unallocable
41       400    6/28/00                         $ 775.00       $   775.00               unallocable
                                                                                  Attachment 1
                                                                                    Page 2 of 2
#    Acct    Trans                   Vendor          Trans Amt     Questioned  Allowable      Reason for
      #      Date                                                    Amt         Amt      Unallowable Amt
42    410   12/10/99                                  $   117.00               $ 117.00
43    410   12/10/99                                  $   110.00               $ 110.00
44    410   12/16/99                                  $    96.00               $    96.00
45    410     2/9/00            [FOIA Ex. 4 and 6]    $   252.00               $ 252.00
46    410     4/5/00                                  $    74.00     $   74.00            unsupported
47    410    4/11/00                                  $    40.00     $    8.00 $    32.00 unreasonable
48    410    5/17/00                                  $    64.42               $    64.42
49    410    6/13/00                                  $    90.98               $    90.98
50    410    6/20/00                                  $   300.61               $ 300.61

                       Totals                         $19,873.23     $10,407.87    $ 9,465.36
                                                                                     Attachment 2
                                                                                       Page 1 of 2


                     Year 1 - Questioned In-kind Match
#              Description              Total Match         Amount         Amount          Reason for
                                         Amount            Questioned      Allowed        Questioned
                                                                                              Amt
 1   assist start up                        $   4,935.00    $   2,467.50   $   2,467.50 unreasonable
 2   assist start up                        $   2,985.00    $   1,492.50   $   1,492.50 unreasonable
 3   office and conference space            $   2,600.00    $   2,600.00                unsupported
 4   classroom and computer lab space       $   3,400.00    $   3,400.00                unsupported
 5                                          $   3,600.00    $   3,600.00                unallocable
 6                                          $   2,000.00    $   2,000.00                unsupported
 7                                          $     744.23    $     744.23                unsupported
 8                                          $      90.00    $      45.00   $      45.00 unreasonable
 9                                          $     150.00    $      75.00   $      75.00 unreasonable
10             [FOIA Ex. 6]                 $   1,020.00    $     510.00   $     510.00 unreasonable
11                                          $     180.00                   $     180.00
12                                          $     240.00    $    240.00                 unsupported
13                                          $     600.00                   $     600.00
14                                          $     250.00                   $     250.00
15                                          $   1,949.50                   $   1,949.50
16                                          $      40.00                   $      40.00
17                                          $      25.00                   $      25.00
18                                          $      60.00    $     30.00    $      30.00 unreasonable
19                                          $     100.00    $     50.00    $      50.00 unreasonable
20                                          $     398.92                   $     398.92
21                                          $      75.00    $     37.50    $      37.50 unreasonable
22                                          $     300.00                   $     300.00
23                                          $      90.00                   $      90.00
24                                          $     180.00                   $     180.00
25                                          $   1,679.00                   $   1,679.00
26                                          $     600.00                   $     600.00
27                                          $     204.35                   $     204.35
28                                          $     600.00                   $     600.00
29                                          $     100.00                   $     100.00

30                                          $ 180.00        $    180.00                   unsupported
31                                          $    90.00                     $      90.00
32                                          $ 150.00                       $     150.00
33                                          $ 2,170.00                     $   2,170.00
34                                          $ 360.00                       $     360.00
35                                          $ 100.00                       $     100.00
36                                          $ 120.00                       $     120.00
37                                          $    24.00                     $      24.00
38                                          $    30.00                     $      30.00
39                                          $ 150.00                       $     150.00
40                                          $ 900.00                       $     900.00
                                                                                Attachment 2
                                                                                  Page 2 of 2

#              Description             Total Match       Amount       Amount          Reason for
                                        Amount          Questioned    Allowed         Questioned
                                                                                        Amt
41                                         $    25.00                 $     25.00
42                                         $ 120.00                   $    120.00
43                                         $ 100.00                   $    100.00
44                                         $ 300.00                   $    300.00
45                                         $ 1,280.00    $ 1,280.00                 unsupported
46                                         $ 1,050.00                 $   1,050.00
47            [FOIA Ex. 6]                 $    75.00    $    37.50   $      37.50 unreasonable
48                                         $ 150.00                   $     150.00
49                                         $ 180.00      $   180.00                unsupported
50                                         $    60.00                 $      60.00
51                                         $    60.00                 $      60.00
52                                         $ 300.00                   $     300.00
53                                         $ 120.00                   $     120.00
54                                         $ 100.00                   $     100.00
55                                         $    75.00                 $      75.00
56 toys                                    $    35.00                 $      35.00

    subtotals:                             $37,500.00    $18,969.23   $ 18,530.77
    Difference Between In-kind                           $ 2,278.00                 unsupported
    reported on SF 269 ($39,778) and
    Spreadsheet of In-kind sources
    maintained by VWBC as
    supporting documentation
    ($37,500): $39,778 - $37,500 =
    Grand total of disallowed costs:                     $21,247.23
               Calculation of Required Reimbursement

             Reported Amount of Federal Funds Outlayed                 $150,000
             Reported Amount of Cash Match Outlayed                    $12,600
             Reported Amount of In-kind Contributions                  $39,778
             Total Reported Outlays/Contributions                      $202,378
             Questioned Expenditures (see page 6)                      ($10,408)
             Questioned In-kind Contributions (see page 6)             ($21,247)
             Net Outlays/Contributions                                 $170,723
             (*) Percentage of federal funds/total award funds         2/3
             Allowable Draw Down of Federal funds                      $113,815

             Total Federal Funds Outlayed                              $150,000
             Allowable Draw Down of Federal Funds                      ($113,815)
             Required Reimbursement                                    $36,185


(*)   Total Federal Funds Requested in Year 1:              $150,000
      Amount of Required Cash Match:                        $37,500
      Amount of Required In-kind Match:                     $37,500
      Total Year 1 Budget of the Award:                     $225,000

      The ratio of federal funds to total award funds is:

      Total Federal Funds Requested in Year 1:              $150,000      = 2
      Total Year 1 Budget of the Award:                     $225,000        3

      Accordingly, 2/3 of the net outlays equals the allowable amount of federal funds to be
      drawn down for this award.
                                                                                                                       Attachment 6
                                                                                                                         Page 1 of 1

                                             REPORT DISTRIBUTION

Recipient                                                                                                   No. of Copies

Associate Deputy Administrator for Management and Administration ....................1

Associate Deputy Administrator for Entrepreneurial Development..........................1

Associate Administrator for Field Operations ...........................................................1

District Director, Vermont District Office.................................................................1

General Counsel.........................................................................................................2

Office of the Chief Financial Officer
Attention: Jeff Brown ...............................................................................................1
